               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 14-02071-02




   Combined Assessment Program 

           Review of the 

  VA Long Beach Healthcare System 

       Long Beach, California 





October 14, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EMS            Environmental Management Service
                 EOC            environment of care
                 facility       VA Long Beach Healthcare System
                 FY             fiscal year
                 HF             heart failure
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NCM            nurse case managers
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 tPA            tissue plasminogen activator
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                         CAP Review of the VA Long Beach Healthcare System, Long Beach, CA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     7

  Medication Management.........................................................................................                  10

  Coordination of Care ...............................................................................................            11

  Acute Ischemic Stroke Care ...................................................................................                  12

  CLC Resident Independence and Dignity ...............................................................                           14

  MRI Safety ..............................................................................................................       16

  Construction Safety.................................................................................................            18


Appendixes
  A. Facility Profile ....................................................................................................        20

  B. Strategic Analytics for Improvement and Learning ............................................                                21

  C. Acting VISN Director Comments .......................................................................                        24

  D. Facility Director Comments ...............................................................................                   25

  E. OIG Contact and Staff Acknowledgments .........................................................                              36

  F. Report Distribution .............................................................................................            37

  G. Endnotes ...........................................................................................................         38





VA OIG Office of Healthcare Inspections
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
July 21, 2014.

Review Results:          The review covered eight activities.                 We made no
recommendations in the following activity:

 Coordination of Care

The facility’s reported accomplishments were an improved bed management system, a
redesigned outpatient pharmacy dispensing project, and an evidenced-based nurse
case management initiative for heart failure.

Recommendations: We made recommendations in the following seven activities:
Quality Management: Ensure that the Resuscitation Services Committee reviews each
code episode and that code reviews include screening for clinical issues prior to the
code that may have contributed to the occurrence of the code.

Environment of Care: Require that Environment of Care Committee minutes and the
environment of care rounds database accurately reflect whether deficiencies were
resolved. Ensure that patient care areas and public restrooms are clean and free from
offensive odors and that walls, counters, floors, and furnishings in these areas are in
good repair. Require that equipment items receive appropriate maintenance and
preventive maintenance and that electrical inspections stickers are current. Store clean
and dirty items separately. Promptly remove expired medications from patient care
areas, and secure medications at all times.

Medication Management: Document patient learning assessments within 24 hours of
admission. Ensure clinicians conducting medication education accommodate identified
learning barriers and document the accommodations made to address those barriers.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient. Screen patients for difficulty swallowing prior to
oral intake, and provide patients with printed stroke education materials upon discharge.
Collect and report to the Medical Executive Committee the percent of eligible patients
given tissue plasminogen activator, the percent of patients with stroke symptoms who
had the stroke scale completed, and the percent of patients screened for difficulty
swallowing before oral intake.

Community Living Center Resident Independence and Dignity: Include restorative
nursing goals and interventions in residents’ care plans, complete required restorative
nursing interventions, and document interventions with the frequency established by



VA OIG Office of Healthcare Inspections                                                        i
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


facility policy. Ensure documentation reflects resident progress toward goals and
reasons why interventions were not provided. Require that employees who perform
restorative nursing services receive training on and competency assessment for range
of motion.

Magnetic Resonance Imaging Safety: Ensure secondary patient safety screenings are
completed and are signed and dated by Level 2 magnetic resonance imaging personnel
prior to the scan. Revise local policy to correct contradictory elements and to be
consistent with Veterans Health Administration policy.

Construction Safety: Conduct tuberculosis risk assessments. Conduct construction site
inspections at the required frequency, and ensure they include all required elements.
Conduct and document infection surveillance activities related to construction projects.
Ensure that follow-up actions in response to unsafe conditions identified during
inspections are documented in Construction Safety Committee minutes and that
minutes track actions to completion. Require that all construction projects comply with
Veterans Health Administration policy requirements.

Comments
The Acting Veterans Integrated Service Network Director and Facility Director agreed
with the Combined Assessment Program review findings and recommendations and
provided acceptable improvement plans. (See Appendixes C and D, pages 24–35, for
the full text of the Directors’ comments.) We consider recommendation 16 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                         JOHN D. DAIGH, JR., M.D. 

                                                        Assistant Inspector General for 

                                                           Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                        ii
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following eight activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

   	 Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.




VA OIG Office of Healthcare Inspections                                                       1
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


The review covered facility operations for FY 2013 and FY 2014 through July 21 2014,
and was done in accordance with OIG standard operating procedures for CAP
reviews. We also asked the facility to provide the status on the recommendations we
made in our previous CAP report (Combined Assessment Program Review of the VA
Long Beach Healthcare System, Long Beach, California, Report No. 12-02189-14,
October 17, 2012).

During this review, we presented crime awareness briefings for 290 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
1,046 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                        Reported Accomplishments 

Bed Management Solution System
In early 2014, to improve inpatient flow, the facility implemented the bed management
solution system to alert EMS of beds in need of cleaning. This system updates the
status of beds in near real time so the facility bed coordinator can assign patients to
beds as they become available. With this system, EMS supervisors are able to better
manage and track timeliness of bed cleaning. In addition, the system has fostered a
greater level of cooperation between nursing and EMS employees through joint rounds
to determine daily demand for services. This allows EMS to adjust staffing to meet
clinical needs while improving patient access to inpatient services. Full implementation
of the system has reduced bed cleaning turnaround time from 10.8 hours to 3.7 hours.

Outpatient Pharmacy Dispensing Project
In early FY 2013, the facility instituted a systems redesign project to reduce wait times
for patients picking up medication at the outpatient pharmacy. The pharmacy
introduced a simplified single ticket type waiting system that displays patient names on
an overhead screen when medications are ready to be picked up. Additionally, the
pharmacy implemented a flexible staffing system that deploys more pharmacists into
the patient service area when wait times exceed the goal of 15 minutes. Prior to this
project, the pharmacy had a waiting system that frustrated patients and took up to
45 minutes to dispense medication. The redesigned system has reduced pharmacy
wait times from 45 minutes to an average of 14 minutes.




VA OIG Office of Healthcare Inspections                                                       2
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Evidence-Based HF Management Initiative
In November 2013, to improve patient outcomes and increase access to inpatient
services, the facility implemented an initiative to help identify patients at the highest risk
for HF. The team employed evidence-based NCM standards of care and American
College of Cardiology clinical practice guidelines. New HF management protocols were
instituted, including NCM face-to-face visits during hospitalization, a telephone nursing
assessment 48 hours post discharge, a face-to-face visit with the NCM and provider
7-days post discharge, and weekly NCM telephone assessments for 30-days post
discharge. The initiative has reduced the facility’s HF readmission rate from 33 percent
to a current average of 17 percent.




VA OIG Office of Healthcare Inspections                                                       3
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                  4
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


NM               Areas Reviewed (continued)                                   Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
 X     The process to review resuscitation events         Eleven months of Resuscitation Services
       met selected requirements:                         Committee meeting minutes reviewed:
        An interdisciplinary committee was                There was no evidence that the committee
          responsible for reviewing episodes of care         reviewed each episode.
          where resuscitation was attempted.               There was no evidence that code reviews
        Resuscitation event reviews included                included screening for clinical issues prior to
          screening for clinical issues prior to events      code that may have contributed to the
          that may have contributed to the                   occurrence of the code.
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        Surgical deaths with identified problems or
          opportunities for improvement were
          reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                        5
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


NM              Areas Reviewed (continued)                                   Findings
       The process to review blood/transfusions
       usage met selected requirements:
        A committee with appropriate clinical
          membership met at least quarterly to review
          blood/transfusions usage.
        Additional data elements were routinely
          reviewed.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that the Resuscitation
Services Committee reviews each code episode and that code reviews include screening for
clinical issues prior to the code that may have contributed to the occurrence of the code.




VA OIG Office of Healthcare Inspections                                                                  6
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the intensive care, one MH, two spinal cord injury, two CLC, and two medical
surgical inpatient units. We also inspected the primary care and eye clinics, the emergency
department, SDS, and the PACU. Additionally, we reviewed relevant documents, conversed
with key employees and managers, and reviewed 21 employee training records (6 SDS,
10 PACU, and 5 eye clinic). The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                  Findings
 X     EOC Committee minutes reflected sufficient         Six months of EOC Committee meeting minutes
       detail regarding identified deficiencies,          and the EOC rounds database reviewed:
       corrective actions taken, and tracking of           Minutes and the database did not accurately
       corrective actions to closure.                        reflect whether deficiencies were resolved.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.         Seven patient care areas and public
                                                            restrooms in two of the adjoining areas had
                                                            offensive odors and/or dirty floors,
                                                            furnishings, walls, and/or window sills.
                                                           Three patient care areas had unsealed wall
                                                            penetrations or damaged counters.
                                                           Six patient care areas had equipment items
                                                            with missing and/or outdated preventive
                                                            maintenance or electrical safety check
                                                            stickers.
                                                           Three patient care areas had missing, broken,
                                                            and/or cracked floor tiles.
                                                           Three patient care areas had wheelchairs that
                                                            were damaged or repaired with medical tape.
 X     Infection prevention requirements were met.         In three patient care areas, clean and dirty
                                                            items were not stored separately.
 X     Medication safety and security requirements         One patient care area had an unsecured
       were met.                                            medication room door, and one patient care
                                                            area had expired medications.




VA OIG Office of Healthcare Inspections                                                                    7
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


NM            Areas Reviewed for General EOC                                 Findings
                          (continued)
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees
       received bloodborne pathogens training
       during the past 12 months.
 NA    Designated SDS employees received medical
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the
       PACU were met.
       Environmental safety requirements in SDS
       and on the PACU were met.
 NA    SDS medical laser safety requirements were
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
 X     Medication safety and security requirements         SDS had an open and undated multi-dose
       in SDS and on the PACU were met.                     vial.
       Auditory privacy requirements in SDS and on
       the PACU were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received
       laser safety training with the frequency
       required by local policy.
 X     Environmental safety requirements in the eye        Two procedure rooms had dirty floors.
       clinic were met.                                    Three procedure rooms had unsealed wall
                                                            penetrations.
       Infection prevention requirements in the eye
       clinic were met.
       Medication safety and security requirements
       in the eye clinic were met.
       Laser safety requirements in the eye clinic
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                  8
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Recommendations

2. We recommended that processes be strengthened to ensure that Environment of Care
Committee minutes and the environment of care rounds database accurately reflect whether
deficiencies were resolved.

3. We recommended that processes be strengthened to ensure that patient care areas and
public restrooms are clean and free from offensive odors and walls, counters, floors, and
furnishings in these areas are in good repair and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that equipment items receive
appropriate maintenance and preventive maintenance and electrical inspections stickers are
current and that compliance be monitored.

5. We recommended that processes be strengthened to ensure that clean and dirty items are
stored separately and that compliance be monitored.

6. We recommended that processes be strengthened to ensure that expired medications are
promptly removed from patient care areas and medications are secured at all times and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  9
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 32 randomly selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement. Any items that
did not apply to this facility are marked NA.

NM                      Areas Reviewed                                        Findings
 X     Clinicians conducted inpatient learning             For 5 patients (16 percent), learning
       assessments within 24 hours of admission or          assessments were conducted more than
       earlier if required by local policy.                 24 hours after admission.
 X     If learning barriers were identified as part of     For two of the six patients with identified
       the learning assessment, medication                  learning barriers, EHR documentation did not
       counseling was adjusted to accommodate the           reflect medication counseling accommodation
       barrier(s).                                          to address the barriers.
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

7. We recommended that processes be strengthened to ensure that patient learning
assessments are documented within 24 hours of admission and that compliance be monitored.

8. We recommended that processes be strengthened to ensure that clinicians conducting
medication education accommodate identified learning barriers and document the
accommodations made to address those barriers and that compliance be monitored.



VA OIG Office of Healthcare Inspections                                                                 10
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 29 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                 11
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 41 randomly selected patients who experienced
stroke symptoms, and 15 employee training records (8 emergency department and 7 intensive
care unit), and we conversed with key employees. We also conducted onsite inspections of the
emergency department, one intensive care unit, and four acute inpatient units (medical/surgical
oncology, direct observation, surgical, and telemetry). The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of     Twenty of the 25 applicable EHRs did not
       Health stroke scale for each patient within the      contain documented evidence of completed
       expected timeframe.                                  stroke scales.
       Clinicians provided medication (tPA) timely to
       halt the stroke and included all required steps,
       and tPA was in stock or available within
       15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
 X     Clinicians screened patients for difficulty         Twenty-one of the 36 applicable EHRs
       swallowing prior to oral intake of food or           (58 percent) did not contain documentation
       medicine.                                            that patients were screened for difficulty
                                                            swallowing prior to oral intake.
 X     Clinicians provided printed stroke education to     Seven of the 22 applicable EHRs did not
       patients upon discharge.                             contain documentation that stroke education
                                                            was provided to the patient/caregiver.
       The facility provided training to staff involved
       in assessing and treating stroke patients.
 X     The facility collected and reported required        There was no evidence that the following data
       data related to stroke care.                         were collected and/or reported to the MEC:
                                                            o Percent of eligible patients given tPA
                                                            o Percent of patients with stroke symptoms
                                                               who had the stroke scale completed
                                                            o Percent of patients screened for difficulty
                                                               swallowing before oral intake
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   12
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Recommendations

9. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

10. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake and provide patients with printed stroke education
upon discharge and that compliance be monitored.

11. We recommended that the facility collect and report to the Medical Executive Committee the
percent of eligible patients given tissue plasminogen activator, the percent of patients with
stroke symptoms who had the stroke scale completed, and the percent of patients screened for
difficulty swallowing before oral intake.




VA OIG Office of Healthcare Inspections                                                                 13
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 10 EHRs of residents (4 residents receiving restorative nursing services and
6 residents not receiving restorative nursing services but candidates for services). We also
observed two meal periods, reviewed nine employee training/competency records and other
relevant documents, and conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented             In three of the four applicable EHRs, there
       restorative nursing services, including active       was no documentation that facility staff
       and passive range of motion, bed mobility,           included restorative nursing goals and
       transfer, and walking activities, according to       interventions in residents’ care plans.
       clinician orders and residents’ care plans.         For the one resident with restorative nursing
                                                            goals and interventions, the EHR did not
                                                            contain evidence that staff consistently
                                                            completed required interventions or
                                                            documented the interventions that were
                                                            provided with the frequency established by
                                                            facility policy.
 X     Resident progress towards restorative nursing       For the one resident with restorative nursing
       goals was documented, and interventions              goals and interventions, the EHR did not
       were modified as needed to promote the               contain evidence that facility staff
       resident’s accomplishment of goals.                  documented resident progress toward goals.
 X     When restorative nursing services were care         For the one resident with restorative nursing
       planned but were not provided or were                goals and interventions, when restorative
       discontinued, reasons were documented in             nursing services were not provided, the EHR
       the EHR.                                             did not reflect the reasons.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were             Two employee training/competency records
       completed for staff who performed restorative        did not contain evidence of completed training
       nursing services.                                    and competency assessment for range of
                                                            motion.




VA OIG Office of Healthcare Inspections                                                                 14
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


NM             Areas Reviewed (continued)                                    Findings
       The facility complied with any additional
       elements required by VHA or local policy.
           Areas Reviewed for Assistive Eating
                Devices and Dining Service
 NA    Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

12. We recommended that processes be strengthened to ensure that staff include restorative
nursing goals and interventions in residents’ care plans and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that staff complete required
restorative nursing interventions and document the interventions with the frequency established
by facility policy, that documentation reflects progress toward goals and reasons why
interventions were not provided, and that compliance be monitored.

14. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on and competency assessment for range of
motion.




VA OIG Office of Healthcare Inspections                                                                 15
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 43 employees (28 randomly
selected Level 1 ancillary staff and 15 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 33 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted a
physical inspection of the MRI suite. The table below shows the areas reviewed for this topic.
The areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
 X     Two patient safety screenings were conducted        Secondary patient safety screening forms for
       prior to MRI, and the secondary patient safety       six patients (18 percent) were missing or were
       screening form was signed by the patient,            not signed and/or not dated by Level 2 MRI
       family member, or caregiver and reviewed and         personnel prior to MRI.
       signed by a Level 2 MRI personnel.
       Any MRI contraindications were noted on the
       secondary patient safety screening form, and
       a Level 2 MRI personnel and/or radiologist
       addressed the contraindications and
       documented resolution prior to MRI.
       Level 1 ancillary staff and Level 2 MRI
       personnel were designated and received
       level-specific annual MRI safety training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.




VA OIG Office of Healthcare Inspections                                                                 16
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


NM             Areas Reviewed (continued)                                       Findings
 X     The facility complied with any additional          Facility policy on MRI safety and VHA policy
       elements required by VHA or local policy.          reviewed:
                                                           The newly published facility policy had
                                                             contradictory critical elements and was not
                                                             consistent with VHA policy.

Recommendations

15. We recommended that processes be strengthened to ensure that secondary patient safety
screenings are completed immediately prior to magnetic resonance imaging and are signed and
dated by a Level 2 magnetic resonance imaging personnel prior to the scan and that compliance
be monitored.

16. We recommended that facility policy be revised to correct contradictory elements and to be
consistent with VHA policy.




VA OIG Office of Healthcare Inspections                                                                    17
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.h

We inspected the project to relocate physical therapy and kinesiotherapy from Building 150 first
floor to T27 and R4. Additionally, we reviewed relevant documents and 25 training records
(6 contractor records and 19 employee records), and we conversed with key employees and
managers. The table below shows the areas reviewed for this topic. The areas marked as NM
did not meet applicable requirements and needed improvement. Any items that did not apply to
this facility are marked NA.

NM                     Areas Reviewed                                         Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
 X     Infection control, preconstruction, interim life    Tuberculosis risk assessments were not
       safety, and contractor tuberculosis risk             conducted to determine the risk of
       assessments were conducted prior to project          tuberculosis transmission to contractors.
       initiation.
       There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
 X     Site inspections were conducted by the             Site inspection documentation reviewed.
       required multidisciplinary team members at          There was no evidence of the weekly
       the specified frequency and included all              inspections required by VHA and local policy.
       required elements.                                  There was inconsistent documentation of
                                                             required elements.
 X     Infection Control Committee minutes                Infection Control Committee minutes for past
       documented infection surveillance activities       2 quarters reviewed:
       associated with the project(s) and any              There was no documentation of infection
       interventions.                                        surveillance activities related to the project.
 X     Construction Safety Committee minutes              Construction Safety Committee minutes for past
       documented any unsafe conditions found             2 quarters reviewed:
       during inspections and any follow-up actions        For three of six inspections, there was no
       and tracked actions to completion.                    documented evidence of follow-up actions in
                                                             the minutes when an unsafe condition was
                                                             identified.
       Contractors and designated employees
       received required training.
       Dust control requirements were met.




VA OIG Office of Healthcare Inspections                                                                    18
                                          CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


NM             Areas Reviewed (continued)                                    Findings
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.
 X     The facility complied with any additional          VHA policy reviewed:
       elements required by VHA or local policy or         Two small active projects did not have
       other regulatory standards.                          infection control risk assessments, and there
                                                            were no construction signs, sticky mats, or
                                                            other containment.

Recommendations

17. We recommended that processes be strengthened to ensure that tuberculosis risk
assessments are conducted to determine the risk of tuberculosis transmission to contractors.

18. We recommended that processes be strengthened to ensure that construction site
inspections are conducted at the required frequency and that inspections contain all elements
required by VHA policy.

19. We recommended that processes be strengthened to ensure that infection surveillance
activities related to construction projects are conducted and documented in Infection Control
Committee minutes.

20. We recommended that processes be strengthened to ensure that Construction Safety
Committee minutes contain documentation of follow-up actions in response to unsafe conditions
identified during inspections and that minutes track actions to completion.

21. We recommended that processes be strengthened to ensure that all construction projects
comply with VHA policy requirements.




VA OIG Office of Healthcare Inspections                                                                     19
                                      CAP Review of the VA Long Beach Healthcare System, Long Beach, CA
                                                                                            Appendix A


Facility Profile (Long Beach/600) FY 2014 through June 20141
Type of Organization                                                       Secondary
Complexity Level                                                           1b-High complexity
Affiliated/Non-Affiliated                                                  Affiliated
Total Medical Care Budget in Millions                                      $472
Number (as of July 2014) of:
    Unique Patients                                                       50,551
    Outpatient Visits                                                     554,979
    Unique Employees2                                                     1,959
Type and Number of Operating Beds:
    Hospital                                                              304
    CLC                                                                   110
    MH                                                                    NA
Average Daily Census:
    Hospital                                                              184
    CLC                                                                   65
    MH                                                                    NA
Number of Community Based Outpatient Clinics                               5
Location(s)/Station Number(s)                                              Anaheim/600GA
                                                                           Santa Ana/600GB
                                                                           Cabrillo/600GC
                                                                           Santa Fe Springs-
                                                                             Whittier/600GD
                                                                           Laguna Hills/600GE
VISN Number                                                                22




1
    All data is for FY 2014 through June 2014 except where noted.
2
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                             20
                                                                CAP Review of the VA Long Beach Healthcare System, Long Beach, CA
                                                                                                                     Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)c




c
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                       21
                                                      CAP Review of the VA Long Beach Healthcare System, Long Beach, CA



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                             22
                                                                                                CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


                                                                         Metric Definitions
 Measure                       Definition                                                                                   Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)            A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                                      A lower value is better than a higher value
 Best Place to Work            Overall satisfaction with job                                                                A higher value is better than a lower value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                                   A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                         A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                                  A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)               A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                                A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                            A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                                       A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                         A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics; FY13 and later)               A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                         A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)            A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics; FY13 and later)     A higher value is better than a lower value
 PSI                           Patient safety indicator (observed to expected ratio)                                        A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                             A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                               A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction                      A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive HF                                    A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                        A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction                    A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive HF                                  A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                                      A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                          A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                               A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics; FY13 and later)   A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                                   23
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA
                                                                                     Appendix C
                        Acting VISN Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       September 25, 2014

          From: 	      Acting Network Director, VA Desert Pacific Healthcare
                       Network (10N22)

       Subject: 	      Combined Assessment Program (CAP) Review of the VA
                       Long Beach Healthcare System, Long Beach, CA

             To: 	     Director, Operations Division, Office of Management and
                       Administration (53B)

       1. I concur with the findings and recommendations in the Combined
          Assessment Program Review of the VA Long Beach Healthcare
          System, Long Beach, California, open recommendations 1–21.

       2. If you have any questions regarding our response and actions to
          the recommendations in the draft report, please contact me at
          (562) 826-5963.




VA OIG Office of Healthcare Inspections                                                      24
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA
                                                                                     Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                  Memorandum


           Date:       September 9, 2014

          From:        Director, VA Long Beach Healthcare System (600/00)

       Subject:        Combined Assessment Program (CAP) Review of the VA
                       Long Beach Healthcare System, Long Beach, CA

             To:       Director, VA Desert Pacific Healthcare Network (10N22)

       1. Please find attached response to the VA Office of Inspector General’s
          (OIG) CAP Review of the VA Long Beach Healthcare System
          conducted the week of July 21, 2014.

       2. We concur with all recommendations.




           Attachment




VA OIG Office of Healthcare Inspections                                                      25
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


                                Comments to OIG Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
the Resuscitation Services Committee reviews each code episode and that code
reviews include screening for clinical issues prior to the code that may have contributed
to the occurrence of the code.

Concur

Target date for completion: October 2014 and on-going.

Facility response: Resuscitation Services Committee (RSC) members have been
instructed to review each code episode prior to meeting, emphasizing the importance of
being prepared to discuss clinical issues that may have contributed to the occurrence of
the code. All codes will be included in the aggregate and each code episode will be
recorded in a database that is available to the committee for their review. Screening for
clinical issues prior to codes is conducted, analyzed, and documented in the
committee’s minutes. The RSC will review the code critique form to identify issues or
trends occurring during the code and implement action plans based upon the clinical
review.

The aggregate outcomes will be reported to the Medical Executive Committee (MEC)
monthly, starting October 2014.

Recommendation 2. We recommended that processes be strengthened to ensure that
Environment of Care Committee minutes and the environment of care rounds database
accurately reflect whether deficiencies were resolved.

Concur

Target date for completion: October 2014 and on-going.

Facility response: Monthly Environment, Safety, and Health Leadership Council
(ESHLC) minutes include a standing Environment of Care (EOC) Deficiency Audit
agenda item. Field sampling audits representing no less than 25 percent of resolved
deficiencies are conducted monthly by trained staff. The audit verifies if the deficiency
was completed and closed and calculates a monthly percentage of accuracy. Audit
results are reported monthly to the ESHLC.

Monthly EOC Deficiency Audit results are sustained at greater-than-or-equal-to
90 percent.



VA OIG Office of Healthcare Inspections                                                      26
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Recommendation 3. We recommended that processes be strengthened to ensure that
patient care areas and public restrooms are clean and free from offensive odors and
walls, counters, floors, and furnishings in these areas are in good repair and that
compliance be monitored.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: In addition to daily cleaning, all inpatient rooms and bathrooms will be
deep cleaned (clean ceiling and vents, wash walls, clean sinks and commodes, clean
corners, scrub floor) once a week. A daily cleaning schedule will be implemented, and
monitored by EMS supervisors for completeness and compliance of cleaning.

Supervisory staff conducts weekly audits utilizing an inspection tool which will be
analyzed, tracked, and trended for compliance. A measure for offensive odors will be
added to the audit tool.

Audit results reported monthly to ESHLC. Monthly EMS Audit results are sustained at
greater-than-or-equal-to 90 percent.

Evaluating the condition of furnishings is conducted during weekly EOC Rounds as part
of the EOC National Checklist and is also evaluated by the Supervisor of the area/unit
monthly. The EOC checklist is maintained and data is tracked, trended and analyzed
and presented to the ESHLC and included in the Environmental Management Service
(EMS) dashboard. Furnishings not in compliance are immediately taken out of service
by tagging the item, removing the item, and reporting it to the area supervisor. If item is
available, it will be replaced immediately; if not a purchase order will be submitted for
replacement.

Monthly compliance is represented by percentage of deficiencies compared to the
number of unique service locations. Compliance is evidenced when measure of
success is equal or greater than 90 percent.

Recommendation 4. We recommended that processes be strengthened to ensure that
equipment items receive appropriate maintenance and preventive maintenance and
electrical inspections stickers are current and that compliance be monitored.

Concur

Target date for completion: April 2015.

Facility response: It has been identified that equipment that does not require
preventative maintenance, were tagged with preventative maintenance stickers. To
ensure that the preventative maintenance and electrical inspection processes are
strengthened, a new “no Preventative Maintenance required” inspection sticker will be
deployed on equipment that is identified as low risk per Medical Equipment
Management Plan.


VA OIG Office of Healthcare Inspections                                                      27
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Equipment that requires preventative maintenance will be monitored using the VISTA
work order system, to ensure that 90 percent or greater of all equipment that requires
preventative maintenance is completed within the month that the equipment is
scheduled for maintenance.

Educate staff on how to identify out-of-date inspection stickers, and the process for
notifying Engineering of equipment out of compliance. In-services will be conducted in
each ward and clinical area. Compliance will be reported monthly to ESHLC until
compliance is equal or greater than 90 percent.

Recommendation 5. We recommended that processes be strengthened to ensure that
clean and dirty items are stored separately and that compliance be monitored.

Concur

Target date for completion: October 2014 and on-going.

Facility response: The VA Long Beach Healthcare System Policy concerning the
separation of clean and dirty items in patient care areas will be reviewed with all nursing
and EMS employees that work in clinical areas where these items are stored. Staff
meetings will be conducted to emphasize the importance of adhering to infection control
principles and guidelines to maintain patient safety. Unit managers and supervisors will
conduct ongoing and random observations with on the spot corrective actions and
additional staff education as needed. Repeat offenses by employees will be addressed
through counseling and progressive disciplinary actions.

Compliance is evaluated through EOC Rounds of patient care areas. Deficiencies are
tracked and trended using Performance Logic software. Audit results are reported
monthly to the ESHLC.

The measure of success is compliance at 90 percent or greater.

Recommendation 6. We recommended that processes be strengthened to ensure that
expired medications are promptly removed from patient care areas and medications are
secured at all times and that compliance be monitored.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: The Healthcare System Policy concerning medication management
and storage will be reviewed with all nursing and pharmacy employees that work in
clinical areas where medications are stored. The respective supervisors will emphasize
the roles and expectations of staff regarding secure storage of medications and the
removal of expired medications.

Nursing and pharmacy will make routine rounds to monitor compliance with the
established Healthcare System Policy. Identified deficiencies will be corrected on the


VA OIG Office of Healthcare Inspections                                                      28
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


spot and reviewed with staff to determine factors that may contribute to non-compliance.
Nursing and pharmacy leadership will collaborate when opportunities for improvement
are identified.

Oversight will be provided by the Organizational Excellence Board through reporting of
deficiencies from weekly EOC rounds/inspections using performance logic software,
with a goal that 90 percent of rounds in clinical areas do not result in deficiencies.

Recommendation 7. We recommended that processes be strengthened to ensure that
patient learning assessments are documented within 24 hours of admission and that
compliance be monitored.

Concur

Target date for completion: November 2015 and on-going.

Facility response: The current nursing admission note allows nurses to bypass the
patient education section, which includes the patient learning assessment. It is
important to note that nurses are consistently completing this assessment; however,
they are not doing so at the time of admission. Veteran Affairs Long Beach Healthcare
System (VALBHS) is consulting with the Clinical Application Coordinators and the Office
of Information and Technology to explore the possibility of creating a note template that
will require nurses to complete the patient learning assessment (mandatory fields) prior
to signing the note. In the meantime, nurses are being educated and reminded to
complete this assessment on all patients within the 24-hour timeframe. Nurse
Managers will emphasize the importance of this assessment and assess for barriers
that impede compliance.

Monthly random audits of at least 30 medical records will be conducted by nursing
managers to monitor compliance of the learning assessment requirement. Results will
be reported monthly to the Organizational Excellence Board until 90 percent or greater
compliance is achieved.

Recommendation 8. We recommended that processes be strengthened to ensure that
clinicians conducting medication education accommodate identified learning barriers
and document the accommodations made to address those barriers and that
compliance be monitored.

Concur

Target date for completion: October 2014 and on-going.

Facility response: The pharmacy counselling discharge note and nursing discharge note
will be updated to include documentation of how learning barriers have been
accommodated. VALBHS is consulting with the Clinical Application Coordinators and
the Office of Information and Technology to explore the possibility of making these fields
mandatory.



VA OIG Office of Healthcare Inspections                                                      29
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


All nursing and pharmacy staff will be educated on the updated changes to the
discharge notes. Monthly random audits of at least 30 medical records will be
conducted by Quality Management to monitor compliance with the requirement.
Results will be reported to the OEB monthly until a measure of success of 90 percent or
great is sustained.

Recommendation 9. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: Medicine leadership is providing additional education, monitoring, and
oversight to ensure that clinicians complete the National Institutes of Health Stroke
Scale (NIHSS) template in CPRS for each patient presenting with stroke symptoms.

The Emergency Department will monitor completion of the NIHSS template through
100 percent chart audits monthly. The measure of success will be 90 percent or
greater. Audit results will be reported to the MEC.

Recommendation 10. We recommended that processes be strengthened to ensure
that clinicians screen patients for difficulty swallowing prior to oral intake and that
patients are provided with printed stroke education upon discharge and that compliance
be monitored.

Concur

Target date for completion: October 2014.

Facility response: Dysphagia screening has been added to the Acute Ischemic Stroke
(AIS) template in CPRS. All clinicians have been educated and reminded to complete
the screening on every patient presenting with stroke symptoms, with an emphasis on
not providing any oral intake until the screening is completed and it is confirmed that the
patient does not have swallowing difficulties.

In addition, clinicians provide stroke patients and their families/caregivers educational
stroke handouts upon discharge. The patient/family education is documented in CPRS.

The Emergency Department staff champions complete the dysphasia screening on the
AIS template, which will be compared with documentation of oral intake. All patient
charts will be audited for compliance when dysphagia is associated with AIS. The
results of dysphagia screening will be reported to MEC and OEB.

Ongoing monthly chart audits will be conducted until three (3) consecutive months of
90 percent compliance rate is achieved.



VA OIG Office of Healthcare Inspections                                                      30
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Recommendation 11. We recommended that the facility collect and report to the
Medical Executive Committee the percent of eligible patients given tissue plasminogen
activator, the percent of patients with stroke symptoms who had the stroke scale
completed, and the percent of patients screened for difficulty swallowing before oral
intake.

Concur

Target date for completion: December 2014 and ongoing.

Facility response: The percent of eligible patients given tissue plasminogen activator,
the percent of patients with stroke symptoms who had the stroke scale completed, and
the percent of patients screened for difficulty swallowing before will be monitored
through chart audits and reported monthly to MEC.

In addition, the data collected in chart audits will be reviewed, analyzed, and aggregated
by the Stroke Committee to identify opportunities for improvement and to strengthen
processes.

Recommendation 12. We recommended that processes be strengthened to ensure
that staff include restorative nursing goals and interventions in residents’ care plans and
that compliance be monitored.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: All residents that receive restorative nursing services will have goals
and interventions included in their overall plan of care. These goals will be discussed
and analyzed at the monthly interdisciplinary team meetings. The plan of care is
updated at least quarterly or more frequently if there is a change in condition or
services.

The Nurse Managers will audit all care plans for patients receiving restorative care
monthly to ensure that restorative care goals are current and accurate.

Ongoing monthly chart audits will be conducted until three (3) consecutive months of
90 percent compliance rate is achieved.

Recommendation 13. We recommended that processes be strengthened to ensure
that staff complete required restorative nursing interventions and document the
interventions with the frequency established by facility policy, that documentation
reflects progress toward goals and reasons why interventions were not provided, and
that compliance be monitored.

Concur

Target date for completion: October 2014 and ongoing.


VA OIG Office of Healthcare Inspections                                                      31
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Facility response: Community Living Center (CLC) leadership is providing additional
monitoring and oversight to ensure that timely, accurate, and complete documentation
of nursing interventions for restorative care are in accordance with the local CLC
Restorative Care policy. Nurse Managers will audit documentation monthly.

CLC leadership is also providing additional education and monitoring to ensure that the
CLC RN weekly summary note in CPRS includes the resident’s progress toward their
restorative goals, as indicated in the care plan.        Nurse Managers will audit
documentation monthly to ensure that they are accurate, compliant, and complete.

The results of the audits will be discussed and analyzed at the monthly CLC leadership
meeting. Action plans will be developed based on the analyses of the audits and
opportunities for improvement.

Recommendation 14. We recommended that processes be strengthened to ensure
that employees who perform restorative nursing services receive training on and
competency assessment for range of motion.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: At time of survey, the CLC staff training and competencies regarding
Restorative Nursing Care were completed and maintained as a collaborative effort
between the Restorative Nurse and the Nurse Manager; however, this led to confusion
and deficiencies.        A more efficient process has been implemented with sole
responsibility and oversight by the respective Nurse Manager of each ward. In addition,
the nurse managers have designated a smaller pool of staff that are responsible for
these functions so that more intensive training, attention, and oversight can be provided,
as it relates to training and competency requirements. The Nurse Managers will be held
accountable for ensuring that all staff assigned to perform range of motion (ROM) and
other restorative nursing care maintain training and competency skills assessments.
Their learning needs will be assessed annually, and ongoing, with on-the-spot training
and/or formal training, as needed. All current CLC staff performing restorative care has
completed competency assessments and new staff assigned to perform restorative care
will have their training and competency assessments completed during initial
orientation.

Recommendation 15. We recommended that processes be strengthened to ensure
that secondary patient safety screenings are completed immediately prior to magnetic
resonance imaging and are signed and dated by a Level 2 magnetic resonance imaging
personnel prior to the scan and that compliance be monitored.

Concur

Target date for completion: January 2015 and ongoing.




VA OIG Office of Healthcare Inspections                                                      32
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Facility response: The present patient safety screening template is being revised to
include an additional signature/date line for the technician completing the secondary
safety screening. Daily audits of the Magnetic Resonance Imaging (MRI) secondary
screening forms will be conducted by the supervisor to ensure that the form is accurate
and complete, and that screening is performed immediately prior to the MRI procedure.
All MRI’s are reviewed to confirm that the secondary safety screenings have been
scanned into PACS/CPRS.

The data will be tracked, trended, and reported on a monthly basis to the Radiology
Quality Committee and Chief of Quality Management. Monitoring will continue until
compliance of 90 percent or greater is achieved and sustained.

Recommendation 16. We recommended that facility policy be revised to correct
contradictory elements and to be consistent with VHA policy.

Concur

Target date for completion: October 2014.

Facility response: The MRI Safety policy was revised to be consistent with VHA policy.
It was reviewed by the MRI Safety Committee and approved by the Radiology MRI
Section leadership.

Recommendation 17. We recommended that processes be strengthened to ensure
that tuberculosis risk assessments are conducted to determine the risk of tuberculosis
transmission to contractors.

Concur

Target date for completion: October 2014 and on-going.

Facility response: A Construction Safety TB Risk Assessment tool is being developed
by the Infection Control Preventionist, in collaboration with the Chair and Co-Chair of
the Construction Safety Committee (CSC). The tool will be incorporated into the
existing pre-Construction Risk Assessment tool currently in use. The risk assessment
tool will be based upon contractor’s proximity to high risk patients and coordinated with
Infection Control’s facility-wide TB risk assessment. The risk assessment will minimize
the risk of TB transmission to contractors. Training will be provided to all Construction
Safety Officers on the proper use of the tool and the importance of its implementation.
Training on the TB Risk Assessment tool will be ongoing with first training session
scheduled for September 2014.

Monitoring of compliance will be performed by the CSC, with a target that 100 percent
of construction contractors will have a TB pre-construction risk assessment. Risk
assessment compliance will be presented monthly to the ESHLC, for ongoing oversight.




VA OIG Office of Healthcare Inspections                                                      33
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


Recommendation 18. We recommended that processes be strengthened to ensure
that construction site inspections are conducted at the required frequency and that
inspections contain all elements required by VHA policy.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: Construction inspection folders in use by Construction Safety Officers
have been updated to include all inspection elements required by VHA policy. The CSC
Charter is updated to address the specific frequency of construction inspections by the
Construction Safety Committee. Weekly inspections will be conducted, consistent with
VHA Directive 2011-036 and VA Long Beach Policy 138-03, scheduled through the
electronic work order system.

Weekly inspections will be tracked and analyzed using the CSC dashboard with a
targeted compliance of 100 percent for all construction.

Construction inspection compliance is reported to the Environment Safety Health and
Leadership Counsel monthly for ongoing oversight.

Recommendation 19. We recommended that processes be strengthened to ensure
that infection surveillance activities related to construction projects are conducted and
documented in Infection Control Committee minutes.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: Infection surveillance activities occur daily and are conducted by the
Construction Safety Officer. Infection surveillance results are forwarded to the Infection
Control Preventionist and documented in the minutes of both the Infection Control
Committee (ICC) and Construction Safety Committee (CSC).

Infection surveillance activities are tracked on the ICC dashboard. Compliance is
reported to the Environment Safety Health and Leadership Counsel monthly.

Recommendation 20. We recommended that processes be strengthened to ensure
that Construction Safety Committee minutes contain documentation of follow-up actions
in response to unsafe conditions identified during inspections and that minutes track
actions to completion.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: CSC meeting minutes will include all identified unsafe conditions with
related follow-up actions that need to be tracked, to ensure deficiencies are corrected.


VA OIG Office of Healthcare Inspections                                                      34
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA


All CSC Inspectors and the Construction Safety Officers (CSO’s) will use the CEOSH
Construction Safety Inspection form, which includes a mechanism to track the close-out
of deficiencies.

Monitoring will occur using the CSC dashboard that will track completion level. Results
will be reported to the ESHLC monthly.

Recommendation 21. We recommended that processes be strengthened to ensure
that all construction projects comply with VHA policy requirements.

Concur

Target date for completion: October 2014 and ongoing.

Facility response: The Construction Safety Committee (CSC) will strengthen its
processes by extending the scope and depth of the program to include all construction
activities of the Engineering Shops, Interior Design, and Office of Informatics and
Technology. These small jobs have not been previously included in the CSC.

The CSC charter will be updated to specifically address inclusion of these small
projects. A dashboard will be developed that will track the weekly updates of the small
job construction activity reports and associated weekly inspections, with the target of
100 percent. The CSC Charter update and the new small job construction activities
reports will be implemented in October 2014.

Results will be reported to the ESHLC monthly.




VA OIG Office of Healthcare Inspections                                                      35
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA
                                                                                     Appendix E

                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Yoonhee Kim, PharmD, Team Leader
Contributors            Paula Chapman, CTRS
                        Frank Keslof, MHA
                        Jeanne Martin, PharmD
                        Simonette Reyes, RN
                        Kathleen Shimoda, RN
                        Julie Story, RN
                        Jovie Yabes, RN
                        Brian Kelly, Special Agent, Office of Investigations
Other                   Daisy Arugay, MT
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Jackelinne Melendez, MPA
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                      36
                               CAP Review of the VA Long Beach Healthcare System, Long Beach, CA
                                                                                     Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Acting Director, Desert Pacific Healthcare Network (10N22)
Director, VA Long Beach Healthcare System (600/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein 

U.S. House of Representatives: Karen Bass, John Campbell, Janice Hahn, 

Alan Lowenthal, Dana Rohrabacher, Lucille Roybal-Allard, Ed Royce, Linda Sanchez, 

Loretta Sanchez, Maxine Waters 



This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                      37
                                       CAP Review of the VA Long Beach Healthcare System, Long Beach, CA
                                                                                             Appendix G

                                                 Endnotes 


a
 References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation Beds,
   March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
    References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
    Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
    American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
    and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
    Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
   References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
d
   References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013. 
e
    The references used for this topic were:
	 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
	 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
 References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                           38
                                       CAP Review of the VA Long Beach Healthcare System, Long Beach, CA



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
   October 4, 2011.
h
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration regulations. 




VA OIG Office of Healthcare Inspections                                                                          39
